No.
IN THE

~upreme Qtourt of tbe ijliniteb ~tateg
ALADDIN MANUFACTURING CORPORATION,
MOHAWK CARPET, LLC , MOHAWK INDUSTRIES, INC. ,
AND SHAW INDUSTRIES , INC. ,

Petitioners ,
V.

THE WATER WORKS & SEWER BOARD
OF THE TOWN OF CENTRE AND
THE WATER WORKS & SEWER BOARD
OF THE CITY OF GADSDEN,

Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 7,275 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules of this Court.
Dated: August 21, 2020

,~

~

Thomas H . Dupree Jr.

